            valuation


             eport

       IMPLEMENTATION OF NATIONAL DEFENSE CENTER FOR
            ENVIRONMENTAL EXCELLENCE PROJECTS


Report No. D-2001-105                          April 25, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CTC                   Concurrent Technologies Corporation
NDCEE                 National Defense Center for Environmental Excellence
                       Office of the Inspector General, DoD
Report No. D2001-105                                                  April 25, 2001
 (Project No. D1999CB-0068.002)

               Implementation of National Defense Center for
                    Environmental Excellence Projects

                                  Executive Summary

Introduction. This evaluation was initiated in response to a request from the Deputy
Under Secretary of Defense (Environmental Security) to review the National Defense
Center for Environmental Excellence (NDCEE). This report is the third and final to be
issued by the Inspector General, DoD, in accordance with the request. Congress
established NDCEE in FY 1990. The NDCEE mission is to transfer environmentally
acceptable materials and processes to DoD organizations and private industry, to
provide training that supports the use of environmentally acceptable technologies, to
support applied research and development and, where appropriate, to transfer new
technologies. On March 14, 2000, the Secretary of the Army reassigned executive
agency responsibility for NDCEE from the Army Materiel Command to the Assistant
Secretary of the Army (Installations and Environment). The Secretary of the Army is
currently restructuring the NDCEE DoD working group into an executive advisory
board that consists of the Executive Agent as Chair and the Deputy Assistant
Secretaries (Environment) for the three Services. The NDCEE program has received
$212.2 million in congressional appropriations from FY 1990 through FY 2000.
Reimbursable funding from FY 1993 through FY 2000 totaled $58.9 million.

Objectives. The overall evaluation objective was to determine the effectiveness of
NDCEE in developing and disseminating advanced environmental technologies for
DoD. Specifically, we evaluated the NDCEE program's effectiveness in successfully
demonstrating and validating advanced technologies, transferring those technologies to
appropriate DoD sites, and realizing significant benefits and return on investment to the
DoD. We also evaluated the adequacy of management controls related to the evaluation
objective.

Results. Although NDCEE has realized successes, program implementation can be
improved. Our survey of NDCEE customers found that 83 percent reported that they
were either satisfied or very satisfied with services received. However, DoD did not
maximize dissemination of advanced environmental technologies from the NDCEE.
Only 20 of the 63 demonstrated technologies (32 percent) were subsequently transferred
to DoD sites. Demonstrated technologies were not disseminated because the DoD
installations requiring the technologies did not receive sufficient funding. Also,
NDCEE did not consistently provide cost/benefit analyses of technologies that it
demonstrated and validated. In addition, Army and NDCEE program managers lacked
meaningful performance and benefits measurement criteria to report mission results.
As a result, DoD is missing opportunities to reduce the costs and risks associated with
environmental pollution and improved direction of NDCEE operations as needed. For
details of the evaluation results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Deputy Assistant Secretary
of the Army (Environment, Safety and Occupational Health) direct the NDCEE to
conduct a potential cost/benefit analysis for each technology that is recommended for
use. Also, we recommend that the Deputy Assistant Secretary, in coordination with the
Deputy Under Secretary of Defense (Environmental Security) and the Services, make
funding available to support the transfer and use of validated and cost-effective,
advanced environmental technology projects to DoD sites. In addition, we recommend
that the Deputy Assistant Secretary, together with the Services, develop a process, in
consultation with the DoD Executive Advisory Board for NDCEE, to identify those
DoD facilities, processes, and contractors that could benefit from
NDCEE-demonstrated and -validated technologies, and institute an effective technology
dissemination strategy to promote their DoD wide implementation wherever suitable.
We also recommend that the Deputy Assistant Secretary develop and carry out
structured oversight for the management of the NDCEE program that includes specific
performance measurement criteria related to the program mission.

Management Comments. The Deputy Assistant Secretary of the Army (Environment,
Safety and Occupational Health) concurred with the finding and recommendations, and
further agreed to use the NDCEE Executive Advisory Board to implement the
recommendations of this report as appropriate. In addition, the Deputy Assistant
Secretary stated that the DoD Environment, Safety and Health Technology Board
Working Group, overseen by the Office of the Deputy Under Secretary of Defense
(Environmental Security), should establish guidelines for implementing DoD
environmental technology in accordance with the recommendations of this report. A
discussion of management comments is in the Finding section of the report and the
complete text is in the Management Comments section.

Evaluation Response. We agree with management comments. DoD Environmental,
Safety and Occupational Health Technology Board Working Group documents state that
a primary function of the Environmental, Safety and Occupational Health Technology
Board is identifying and funding of proven environmental technologies. Continued
efforts in this direction will improve the overall program effectiveness.




                                           ii
Table of Contents

Executive Summary                                                    i


Introduction
     Background                                                     1
     Objectives                                                     2

Finding
     Implementation of National Defense Center for Environmental
       Excellence Projects                                          4

Appendixes
     A. Evaluation Process                                          11
          Scope and Methodology                                     11
          Management Control Program Review                         12
          Prior Coverage                                            12
     B. Inspector General, DoD, Survey and Technology Site Visits   14
     C. Report Distribution                                         16

Management Comments
     Deputy Assistant Secretary of the Army
     (Environment, Safety and Occupational Health)                  19
Background
           Establishment of the National Defense Center for Environmental Excellence
           (NDCEE). Public Law 101-302, “FY 1990 Supplemental Appropriations Act,”
           provided for the establishment of the NDCEE to transfer1 environmentally
           acceptable materials and processes to DoD activities and private industry. The
           Act also requires the NDCEE to provide training that supports the use of new
           environmentally acceptable technologies, support applied research and
           development and, where appropriate, transfer new technologies.

           Executive Agent. In a March 20, 1991, memorandum, the predecessor of the
           Deputy Under Secretary of Defense (Environmental Security) designated the
           Secretary of the Army as the NDCEE executive agent, responsible for oversight
           of policy, budget, contracting, and other DoD concerns relating to NDCEE. On
           April 11, 1991, the Secretary of the Army delegated NDCEE executive agent
           responsibility to the Army Materiel Command. On March 14, 2000, the
           Secretary of the Army reassigned executive agency responsibility from the
           Army Materiel Command to the Assistant Secretary of the Army (Installations
           and Environment). The Army awarded Concurrent Technologies Corporation
           (CTC) a series of 5-year cost reimbursement contracts to operate and manage
           the NDCEE. The present 5-year contract expires in 2003. CTC is a nonprofit
           corporation with headquarters in Johnstown, Pennsylvania, and regional field
           offices throughout the United States.

           NDCEE Funding. The NDCEE program was established in 1990 and has
           received congressional appropriations from its inception to the present.
           Congressional appropriations, referred to as mission-directed funding, are used
           to maintain NDCEE management and operations. The NDCEE program
           received $212.2 million in congressional appropriations from FY 1990 through
           FY 2000. The mission-directed funding is one of two major categories of
           program funding sources. The other NDCEE program-funding source is
           reimbursable funding. Reimbursable funding was initiated in FY 1993 to
           compensate NDCEE for projects initiated to meet specific requirements of the
           requesting customer organization. These organizations include each of the DoD
           Services and the Defense Logistics Agency. Reimbursable funding from
           FY 1993 through FY 2000 totaled $58.9 million.

           NDCEE 5-Year Plan. In Conference Report 102-1015, page 178, FY 1993
           Defense Appropriations Act, conferees directed the Secretary of the Army to
           submit by “March 15, 1993, the Army's 5-year plan for this Center,”
           (NDCEE). The conference report resulted in a continuing 5-year reporting
           requirement. The current 5-year plan covers FY 1998 through FY 2003 and
           includes seven NDCEE goals. Two key goals are:

                    •   Transfer environmentally acceptable technologies and insert into
                        weapon systems and the industrial base, and

1
    We interpret "transfer" to mean "transitioned to a DoD site and in current use."
                                                      1
                   •    Provide a bridge between the Science and Technology demonstration
                        and validation2, engineering development, and the manufacturing
                        technology communities.

           The primary focus for FY 1998 and FY 1999 was expanding NDCEE expertise
           over DoD industrial pollution prevention and compliance. NDCEE focused
           most of its technology efforts on four industrial processes: painting, metal
           finishing, paint stripping, and metal cleaning. The processes are typically
           performed in Army Depots, Naval Stations and Shipyards, and Air Force
           Logistical Centers. Beginning in FY 2000, the plan states that NDCEE would
           further develop expertise in technology transfer, while in FY 2001, NDCEE
           would concentrate on technology training for DoD customers.

           DoD Executive Advisory Board for NDCEE. The NDCEE DoD working
           group was established in 1994 to address DoD environmental technology
           requirements and to facilitate the exchange of programmatic and technical
           information among DoD, other Federal agencies, industry, and academia. The
           working group was never chartered. It included two representatives of the
           Army, Navy, Air Force, Marine Corps, the Defense Logistics Agency, and
           non-voting representatives from the offices of the Deputy Under Secretary of
           Defense (Environmental Security) and the executive agent. The new executive
           agent is restructuring this group into an executive advisory board with three
           operational tiers: policy, administrative actions, and technical issues. The top
           tier of the new advisory board is chaired by the executive agent and includes the
           Deputy Assistant Secretaries (Environment) of the three Services. Completion
           of the restructuring is expected during 2001.

           DoD Environmental Quality Safety & Occupational Health Technology
           Board (the Board). In February 2000, the Deputy Under Secretary of Defense
           (Environmental Security) established the Board to provide policy, oversight, and
           coordination for DoD environmental, safety, and occupational health technology
           programs. The Board established a working group to integrate the Service
           requirements, coordinate other DoD level programs, and provide information on
           Service implementation of technologies.

Objectives
           The overall evaluation objective was to determine the effectiveness of NDCEE
           in developing and disseminating advanced environmental technologies for DoD.
           Specifically, we evaluated the NDCEE program effectiveness in successfully
           demonstrating and validating advanced technologies, transferring those
           technologies to appropriate DoD sites, and realizing significant benefits and

2
    We define “validation” as meeting the technical performance and demonstration requirements stated in
    the contractual task order.




                                                     2
return on investment to the DoD. We also evaluated the adequacy of
management controls related to the evaluation objective. See Appendix A for a
discussion of the evaluation scope and methodology and our review of the
management control program.




                                   3
                   Implementation of National Defense
                   Center for Environmental Excellence
                   Projects
                   Although the NDCEE program has realized some successes, program
                   implementation can be improved. Our survey of NDCEE customers
                   found that 83 percent reported that they were either satisfied or very
                   satisfied with services received. However, DoD did not maximize
                   dissemination3 of advanced environmental technologies from the
                   NDCEE. In addition, Army and NDCEE program managers lacked
                   meaningful performance and benefits measurement criteria to report
                   mission results. These conditions occurred because:

                            •   NDCEE did not consistently provide cost/benefit analyses of
                                technologies that it demonstrated and validated,

                            •   The installations requiring the technologies did not receive
                                sufficient funding, and

                            •   The Army executive agent did not provide adequate oversight
                                of the NDCEE program.

                   As a result, DoD is missing opportunities to reduce costs and risks
                   associated with environmental pollution and improved direction of
                   NDCEE operation was needed.

NDCEE Technology Demonstrations and Transfers
           Customer4 Satisfaction with NDCEE. We conducted a survey of 72 NDCEE
           customers, of which 50 replied (see Appendix A for a description of the
           sampling methodology used). Eighty-three percent of the customers replying
           reported that they were either satisfied or very satisfied with the service they
           received from NDCEE. We also visited 9 NDCEE customer sites to review
           20 transferred technologies. (See Appendix B for a discussion of the survey and
           site visit results.)

           Demonstration and Transfer of Technologies. NDCEE realized some
           successes through the transfer of technologies to DoD sites. A summary of
           NDCEE demonstrations and transfers is presented in the following table.




3
    We define “dissemination” to mean the transfer of a specific technology to one or more DoD sites.
4
    We define “customer” to mean installations that are recipients of NDCEE technology, including all
    reimbursable and congressionally directed funds.

                                                     4
                   NDCEE Technology Demonstrations and Transfers
                            FY 1991 through FY 2000
     Demonstrations
      Completed demonstrations                                              63
      In-process technology demonstrations (transfer decision pending)      21
        Total                                                               84

     Transfers
      Technologies transferred to a DoD site with NDCEE demonstration       21
      Technologies transferred to DoD site with no demonstration required   35
       Total                                                                56


     How NDCEE Promotes Technology Dissemination. NDCEE promotes
     technology adoption at its Johnstown facility where it performs presentations,
     demonstrations, and validations. Some technologies are demonstrated at DoD
     customer sites. On occasion, DoD customers bring their own industrial items to
     NDCEE for validation. NDCEE also promotes dissemination of demonstrated
     technologies to DoD sites by providing web and hardcopy information to
     potential DoD users.

     Technologies Demonstrated and Transferred by NDCEE. An example of an
     NDCEE-demonstrated and -transferred technology is the Jacksonville Naval Air
     Depot Automated Ultrahigh Pressure Water-Jet System Workcell. The water jet
     system replaced a previous acid bath technology used to clean aircraft engine
     parts and uses chemical-free ionized water, eliminating most hazardous waste
     by-products generated by the previous technology. The water jet technology
     cleans parts on an average of 15 minutes compared to up to a day and a half
     required by the previous technology. This new technology enabled the naval air
     depot to increase cleaning capacity while eliminating work backlogs. The life
     cycle economic analysis projected potential monetary benefits of $8.7 million
     over 15 years, with a projected payback of 0.9 years.

     NDCEE Transferred Technologies with no Demonstration Required.
     NDCEE managers noted that technology demonstrations were not needed for
     35 transferred technologies that either were demonstrated by another party or
     were already in use by industry. An example is the Radford Army Ammunition
     Plant Facility Environmental Management and Monitoring System. The system
     reduces work hours previously devoted to reading and recording safety
     instruments while enhancing plant operational safety through improved early
     problem recognition. NDCEE managers expected the Radford system to result
     in extensive labor cost reductions.
Dissemination and Analysis of NDCEE Technologies
     DoD did not maximize dissemination of advanced environmental technologies
     from the NDCEE. Although NDCEE technology transfer activities are often
     successful, technologies are not being effectively disseminated to many potential
     DoD customers. Of the 20 technologies demonstrated and transferred by

                                           5
NDCEE, only 1 technology was disseminated to multiple sites. Installation
funding limitations remain the primary reason for the limited technology
dissemination.

        NDCEE Study of Industrial Requirements. An NDCEE 1997 study
revealed that similar process requirements are present at many sites across DoD
Components. NDCEE developed a comprehensive matrix of industrial
processes at Army Depots, Naval Air Stations and Shipyards, and Air Force
Logistics Centers. This matrix indicated that the same or very similar industrial
processes are present at many weapon system maintenance sites. The study
concluded that the DoD user community potentially benefiting from
disseminated technologies is much greater than previously believed and that an
effective technology will likely benefit other sites. By failing to reach a greater
share of this potential user community, DoD is missing opportunities to realize
greater monetary return on its NDCEE investment and to lower environmental
risk at DoD sites.

Transfer of Demonstrated Technologies. As noted in the table on page 4,
NDCEE has demonstrated 63 technologies since 1991. Only 20 of the
63 demonstrated technologies (32 percent) were subsequently transferred to
DoD sites. Demonstrated technologies were not transferred because
installations requiring the technology did not receive sufficient funding,
technical obstacles existed, the technology failed to pass validation, and the
technology or process was not yet required.

        Technologies not Transferred Because of Lack of Funding. Lack of
funding to pay for technology transfer and dissemination is perhaps the most
difficult obstacle faced by the NDCEE program. Twenty-five percent of the
respondents to our questionnaire who implemented the results of their project
listed “lack of funding for capital equipment or other implementation costs” as
the most significant obstacle they encountered in implementing the project
results. NDCEE has no control over the funding of DoD facilities for the
procurement of NDCEE environmental technologies. An example of an
NDCEE-demonstrated-and-validated technology project not transferred due to
lack of funding is the Mountain State Engineering Pressure-Controlled
Atomization Process. The pressure-controlled atomization process is a thermal
spray that might replace hard chrome electroplating technology for some
applications. Although a demonstration unit was fabricated and acceptance tests
were completed, funding was exhausted and the NDCEE transfer did not take
place.

        Study of Technical Obstacles to Technology Transfers. The NDCEE
contracted with the National Academy of Sciences (National Research Council)
to study and assess barriers to the transfer of pollution prevention technology
related to materials processing and manufacturing. The study results should
identify NDCEE problems with technology transfer to DoD Components and
provide recommended actions. The report is expected in 2001.

       Other Factors Inhibiting Transfers. In several cases, the demonstrated
technology failed validation and did not satisfy customer requirements.

                                     6
    Occasionally, the needs of a client may change during the demonstration period,
    making the transfer no longer practical. Some technology demonstrations
    involve more than one client, and sometimes more than one Service. As a
    result, each technology will have different transfer conditions that are separately
    considered. In some cases, the technology may be relatively uncomplicated
    making it possible for a client to adopt the technology without the assistance of
    NDCEE. Finally, the purpose of a demonstration may be to further the
    development of a technology with no specific facility targeted for the transition.

    NDCEE Cost/Benefit Analyses. NDCEE customers surveyed stated that the
    cost/benefit or returns on investment calculations were performed for only
    54 percent of the technologies demonstrated and/or transferred (see Appendix B
    for a discussion of survey results). NDCEE managers stated that many projects
    did not receive a cost/benefit or return on investment study because such
    analyses were performed only at customer request and were separately funded.
    Reponses to our questionnaire indicated that, of those customers who
    implemented projects, 57 percent did not realize the estimated savings. Cost-
    effectiveness is often a critical element for potential technology users in
    assessing the merits of technology adoption. Regardless of customer
    requirements for a technology project, we believe that a cost/benefit calculation
    should always be included in the overall project analysis, if it is relevant.

            Environmental Cost Analysis Methodology. The environmental cost
    analysis methodology is a model developed by Lybrand Coopers L.L.P. and
    sponsored by the Office of the Deputy Under Secretary of Defense
    (Environmental Security). The model provides a consistent quantification and
    evaluation of costs and benefits of technology investments. We believe that
    NDCEE should adopt a standard methodology, such as an environmental cost
    analysis, for technology demonstration and validation. An accurate cost/benefit
    and return on investment analysis will provide a basis for comparison to other
    potential sites.

    Technology Dissemination Methodology. Although NDCEE and DoD had
    some success in transferring technologies to DoD sites, NDCEE lacked an
    effective technology dissemination methodology. Current dissemination
    activities are important and should continue to be offered, but they should focus
    on transferring technologies to all potential DoD customers. The previously
    mentioned NDCEE industrial requirements study documents that NDCEE had
    not reached many potential customers for these technologies. NDCEE needs to
    supplement its current transfer activities to identify and pursue all potential
    customers for technologies already demonstrated and validated by NDCEE.
    The executive agent, through the Executive Advisory Board, should assure that
    all potential customers consider acquiring these technologies.
NDCEE Performance Measures
    Army and NDCEE program managers lacked meaningful performance metrics
    to quantify the NDCEE mission accomplishment because the Army executive
    agent did not provide adequate oversight of the NDCEE program. As a result,



                                         7
opportunities for enhancing the benefits of the NDCEE program to DoD were
not fully exploited. Recent executive agent changes may help to correct this
situation.

Performance Metric Criteria. We did not identify any specific policy
requirements or performance measurement criteria for the NDCEE program.
However, we consider performance and outcome criteria and metrics to be
fundamental to proper program management and oversight. Performance
metrics may be impractical in the early phases of research and development;
however, the NDCEE program is dealing with late stage, fully developed
technologies, most of which are already in practical and beneficial use in private
industry. Therefore, we believe that performance and outcome metrics are not
only practical to NDCEE, but also essential to competent program management.
Army Oversight of NDCEE Program. The Army had not established formal
criteria on how to measure NDCEE mission accomplishments or to identify
NDCEE benefits. The Secretary of the Army initially delegated NDCEE
executive agent responsibility to the Army Materiel Command. We interviewed
members of the Army Materiel Command on how they performed their NDCEE
oversight responsibilities. We concluded that the Army Materiel Command
performed only limited formal oversight of the NDCEE program because the
Command had no policy for NDCEE program oversight and had not established
criteria to evaluate NDCEE mission accomplishments or to identify and measure
NDCEE benefits. This inadequate oversight and lack of performance
measurement criteria were serious program weaknesses; however, the Army has
since taken steps to address program oversight.

Army Changes in Program Management. As a result of this and previous
Inspector General, DoD, reports on NDCEE, the Army made several changes to
the NDCEE program. The Secretary of the Army transferred NDCEE
executive agent responsibility to the Assistant Secretary of the Army
(Installations and Environment) from the Army Materiel Command. The new
executive agent delegated program management authority to the Deputy
Assistant Secretary of the Army (Environment, Safety and Occupational
Health). Effective November 7, 2000, the Assistant Secretary transferred
Procurement Contracting Officer authority to Defense Supply Services-
Washington from the Tank-Automotive and Armaments Command. The new
executive agent coordinated a complete review of the mission and structure of
the executive advisory process. The new structure’s primary challenge is to
enable funding for all DoD sites that wish to acquire and use NDCEE-
demonstrated technologies.

Improvements Needed in NDCEE Operations. Although customers, in
response to our questionnaire, gave NDCEE very favorable ratings,
improvements could be made to maximize the benefits of NDCEE to the DoD.
NDCEE needs to:

       •   Develop a more effective methodology for disseminating technologies
           to DoD customers in implementing the results of the 1997 study of
           industrial requirements,

                                    8
           •   Provide a cost/benefit analysis for each project or technology, where
               appropriate, and

           •   Create and use management performance measurement criteria.

    Implementation of the above should result in an improved NDCEE process for
    identifying and soliciting potential DoD customers to benefit from
    NDCEE-demonstrated technologies.

Summary
    Congress created NDCEE in 1990 to demonstrate, validate, and transfer to DoD
    organizations environmentally acceptable materials and processes with the
    capability of reducing the cost and risk associated with environmental pollution.
    NDCEE customers in the DoD Components were generally satisfied with the
    work and products they received from NDCEE. NDCEE reported that it had
    demonstrated 63 technologies since 1991; however, only 20 of these
    technologies had been transferred to DoD sites and only 1 technology had been
    disseminated to more than one site. A 1997 NDCEE study concluded that there
    are many additional sites and industrial processes within DoD that might also
    benefit from the demonstrated technologies. By not maximizing the transfer and
    use of these advanced industrial processes wherever they are suitable within
    DoD, the DoD is not taking full advantage of the opportunities to reduce the
    significant cost and risk of environmental pollution. In addition, the program
    lacks performance measurement criteria. Recent executive agent organizational
    changes may help to correct the deficiencies.


Management Comments on the Finding
    Management Comments. The Deputy Assistant Secretary of the Army
    (Environment, Safety and Occupational Health) concurred with the finding.


Recommendations and Management Comments
    We recommend that the Deputy Assistant Secretary of the Army
    (Environment Safety and Occupational Health):

           1. Direct the National Defense Center for Environmental Excellence
    to conduct a potential cost/benefit analysis for each technology
    recommended for use.

           2. In coordination with the Deputy Under Secretary of Defense
    (Environmental Security) and the Services, make funding available to
    support the transfer and use of validated and cost-effective, advanced
    environmental technology projects to DoD sites.



                                        9
       3. Together with the Services:

              a. Develop a process in consultation with the DoD Executive
Advisory Board for NDCEE to identify those DoD facilities, processes and
contractors that could benefit from National Defense Center for
Environmental Excellence-demonstrated and -validated technologies, and

             b. Institute an effective technology dissemination strategy to
promote their DoD-wide implementation wherever suitable.

       4. Develop and carry out structured oversight for the management
of the National Defense Center for Environmental Excellence program that
includes specific performance measurement criteria related to the program
mission.
Management Comments. The Deputy Assistant Secretary of the Army
(Environment, Safety and Occupational Health) concurred with
Recommendations 1. through 4. The Deputy Assistant Secretary stated that his
office will use the NDCEE Executive Advisory Board to implement the
recommendations. In addition, the Deputy Assistant Secretary stated that the
DoD Environment, Safety and Health Technology Board Working Group,
overseen by the Office of the Deputy Under Secretary of Defense
(Environmental Security), should establish guidelines for implementing DoD
environmental technology in accordance with the recommendations of this
report.

Evaluation Response. We agree with management comments. DoD
Environmental, Safety and Occupational Health Technology Board Working
Group documents state that a primary function of the Environmental, Safety and
Occupational Health Technology Board is identifying and funding
implementation of proven environmental technologies. Continued efforts in this
direction will improve the overall program effectiveness.




                                  10
Appendix A. Evaluation Process
Scope and Methodology
    We evaluated NDCEE technology projects to determine whether NDCEE was
    successfully meeting its mission to demonstrate, validate, and transfer
    technology projects to appropriate DoD sites while realizing significant benefits
    and return on investment to DoD. We assessed NDCEE mission
    accomplishment through three methods. We gathered a list of all successfully
    demonstrated technologies from NDCEE relating to technology demonstrations,
    demonstration outcomes, transfer of technologies to DoD sites, and documented
    technology benefits to the DoD up to June 1, 2000. We also gathered
    information through a questionnaire provided to a randomly selected statistical
    sample of 72 NDCEE DoD customers for 60 NDCEE study, planning, and
    technology projects. In addition, we carried out a series of nine site visits and
    interviews to DoD Component locations that have extensively used NDCEE
    services. Three sites were selected from each military Service. See
    Appendix B for further discussion of questionnaire and site review scope and
    methodology, and a summary of results of the reviews.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

    DoD Corporate Level Goal 2: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2) FY 2001 Subordinate Performance
    Goal 2.3: Streamline the DoD infrastructure by redesigning the Department’s
    support structure and pursuing business practice reforms. (01-DoD-2.3)

    DoD Functional Area Reform Goals. Most DoD functional areas have also
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objective and goal:

           Environmental Functional Area. Objective: Achieve compliance with
           applicable Executive orders, and Federal, State, and inter-state, regional,
           and local statutory and regulatory environmental requirements
           Goal: Number of new, open, unresolved, and closed enforcement
           actions to environmental statutes. (ENV-2.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.

                                       11
    Use of Computer-Processed Data. We did not use computer-processed data
    for this evaluation.

    Evaluation Type, Dates, and Standards. We performed this program
    evaluation from August 2000 through January 2001 according to standards
    implemented by the Inspector General, DoD. We included tests of management
    controls considered necessary.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, requires DoD organizations to implement a
    comprehensive system of management controls that provide reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the management controls of the Army management and oversight of
    the NDCEE. We specifically reviewed the effectiveness of the executive agent
    in the management control process and the annual statement of assurance for the
    NDCEE program in accordance with DoD Instruction 5010.40.

    Adequacy of Management Controls. NDCEE management controls were
    inadequate because the Army Executive Agent did not provide adequate
    oversight. The Army improved program oversight through transfer of executive
    agency responsibilities to the Office of the Assistant Secretary of the Army
    (Installations and Environment) as recommended in Inspector General, DoD,
    Report No. D-2000-127, “Program Management of the Materials and Processes
    Partnership for Pollution Prevention,” May 22, 2000. Implementation of
    Recommendation 4. by the Deputy Assistant Secretary of the Army
    (Environmental Safety and Occupational Health) will address remaining
    identified weaknesses.

Prior Coverage
    We identified four Inspector General, DoD, reports conducted on the subject
    during the last 5 years.




                                       12
Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-6-002, “Report on Quality Control
     Review of Grant Thornton LLP, for Office of Management and Budget Circular
     No. A-133 Audit Report of Concurrent Technologies Corporation Fiscal Year
     Ended June 30, 1998,” February 23, 2001.

     Inspector General, DoD, Report No. D-2000-188, “Contract Management for
     the National Defense Center for Environmental Excellence,” September 14,
     2000.

     Inspector General, DoD, Report No. D-2000-127, “Program Management of
     the Materials and Processes Partnership for Pollution Prevention,” May 22,
     2000.

     Inspector General, DoD, Report No. 99-249, “Implementation of Innovative
     Technology for DoD Environmental Cleanup Projects,” September 9, 1999.




                                       13
Appendix B. Inspector General, DoD, Survey
            and Technology Site Visits

Questionnaire of NDCEE Clients
    In order to obtain a more detailed and representative picture of NDCEE
    customer experience, we mailed questionnaires concerning 60 NDCEE projects
    to NDCEE clients at 72 DoD Component sites. The 60 NDCEE projects,
    valued at $72.2 million, were statistically sampled projects from a universe of
    141 study, planning, and technology demonstration projects. We received
    50 questionnaire responses (69 percent) of the 72 sent. Twenty-four
    questionnaire responses dealt with NDCEE technology demonstration projects,
    and the remaining 26 responses involved NDCEE plans or studies.

    Questionnaire Results. We asked 16 questions covering three areas of interest:

       •    why customers used NDCEE,
       •    customer satisfaction with NDCEE, and
       •    project cost avoidance and/or return on investment.

    Why Customers Used NDCEE. Questionnaire responses indicated that ease
    and convenience of contracting with NDCEE for the needed technology was the
    primary reason (43 percent) that DoD customers sought technical assistance.
    However, only 18 percent of respondents considered NDCEE to be the best
    qualified or the only qualified source for the transferred technology. Eleven
    percent of respondents said NDCEE was chosen because they had no other
    option. When asked what was the primary reason for performing the
    technology project, 32 percent of the respondents indicated to “achieve
    compliance” and 22 percent sought to “compare alternatives.”

            NDCEE Uniqueness. Although customers responded very positively
    when asked about work delivered by NDCEE, they did not consider NDCEE to
    be particularly unique. For instance, 69 percent of questionnaire respondents
    stated that they would have likely found and adopted the transferred technology
    even if NDCEE did not exist.

            Types of NDCEE Support. In follow-up field visits to some of these
    respondents, we were told that they knew about the technology before their
    relationship to NDCEE. However, customers still stated that NDCEE provided
    valuable support and was instrumental in the final project success. Surprisingly,
    only 10 percent of respondents stated that NDCEE “fulfilled a new or more
    effective technology,” which is the general mission of NDCEE.

    Customer Satisfaction with NDCEE. Respondents indicted satisfaction with
    NDCEE. For example, 83 percent said they were either “satisfied” or “very
    satisfied” with the work performed by NDCEE, and 74 percent said they were




                                       14
           either “likely” or "very likely" to recommend NDCEE to others. In addition,
           89 percent rated products delivered by NDCEE as “satisfactory” or better when
           compared to other DoD environmental programs or Service Centers.

           Project Cost Avoidance and Return on Investment. Responses to NDCEE
           cost-avoidance estimates were mixed. Fifty-four percent of the respondents
           stated that NDCEE provided a cost/benefit estimate and a time frame, while
           46 percent stated that NDCEE did not provide such an estimate. Where cost
           avoidance estimates were performed, 57 percent of the respondents stated that
           project savings did not materialize. Respondents stated that projected savings
           did not materialize either because the project was not implemented on a full-time
           basis, or because the project was implemented but estimated results were not
           achieved. Several customer responses indicated that achieving environmental
           compliance was the principal reason for the project, with cost benefit being a
           secondary consideration. 5

DoD Site Visits
           We reviewed 27 projects at 9 NDCEE customer sites that extensively used
           NDCEE services. We selected three sites from each military Service. We
           interviewed technical personnel responsible for the NDCEE projects:
           technology operators, senior managers, and others associated with the project
           outcomes. We sought to learn how the technologies were installed at the sites,
           the exact role of NDCEE in the process, the quality of the work and products
           delivered by NDCEE, and the subsequent experience of the site following
           installation of the technology. We also observed the technologies in operation.
           Most of the technologies observed dealt with removing or applying coatings on
           weapon system parts.

           Visit Results. The site visits confirmed most of the questionnaire data. Of the
           24 technologies reviewed, 20 technologies were in full-time use. Two
           technologies were installed, tried, and eventually abandoned because they did
           not work satisfactorily6, and one technology was still in field-testing. One
           technology in full-time use had been disseminated to two of the sites visited.
           NDCEE customers were generally satisfied with the work and products
           delivered by NDCEE. Interviews confirmed that the principal concern of
           customers was compliance with environmental requirements in order not to
           interrupt critical operations. Customers stated that 12 of the technologies helped
           meet an environmental requirement, while 10 projects documented cost benefits,
           and 9 did not. Two locations told us that they use other technical contractors in
           addition to NDCEE and choose the best-qualified contractor for the particular
           task. Two other sites currently use NDCEE exclusively.



5
    Of the 60 projects in our sample, 26 projects consisted of plans, studies or environmental management
    improvements for which cost avoidance calculations were not applicable.
6
    Advanced Immersion System at the Corpus Christi Army Depot, Texas, and Wastewater Technology
    Testbed at the Puget Sound Naval Shipyard, Washington.



                                                     15
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer
Deputy Under Secretary of Defense (Environmental Security)

Department of the Army
Assistant Secretary of the Army (Installations and Environment)
   Deputy Assistant Secretary of the Army (Environment Safety and Occupational
      Health)
Commander, Tank-Automotive and Armaments Command, Army Research and
   Development Center
Auditor General, Department of the Army
Inspector General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Deputy Assistant Secretary of the Navy (Environment and Safety)
Superintendent Naval Post Graduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Inspector General, Defense Intelligence Agency
Director, National Security Agency
Inspector General, National Security Agency
Director, Acker Library, Defense Systems Management College
Director, Defense Contract Management Agency
Director, Audit Control Office, Defense Finance and Accounting Service




                                         16
Non-Defense Federal Organizations
Office of Management and Budget
  National Security Division

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
Department of the Army Comments




                 19
Evaluation Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
William C. Gallagher
Benjamin A. Mehlman
LTC George P. Marquardt
Peter J. Larson
Vanessa S. Adams
Karen A. Ulatowski
Robert B. France
